Office of Evaluations
Report No. EVAL-12-001


The FDIC’s Acquisition and Management
of Securities Obtained through Resolution
and Receivership Activities




                                October 2011
                                       Executive Summary
                                       The FDIC’s Acquisition and Management of
                                       Securities Obtained through Resolution and
                                       Receivership Activities
                                                                                       Report No. EVAL-12-001
                                                                                                  October 2011

Why We Did The Audit
The FDIC Office of Inspector General (OIG) contracted with BDO USA, LLP (BDO) to conduct an audit
of the FDIC’s acquisition and management of securities obtained through resolution and receivership
activities. The audit objectives were to determine whether key procedures, processes, and controls over
acquisition and management of securities ensure that: (1) securities were fully identified and accurately
recorded into receivership accounts; (2) securities were valued in accordance with pricing policies
approved by the Division of Resolutions and Receiverships (DRR) Franchise Marketing Unit (FMU);
(3) principal and interest (P&I) payments associated with securities were received and properly recorded;
and (4) securities were transferred to the FDIC custodial account completely and accurately or adequate
control was established to safeguard the physical securities.

The audit covered the securities that were acquired through the resolution and receivership activities of
the failed banks that were closed and placed into FDIC receivership from October 1, 2010 through
March 31, 2011. The audit did not include securities covered by shared-loss agreements.


Background
DRR has primary responsibility for managing receivership assets, including securities. Securities may be
a substantial portion of failed institutions’ assets and may include debt instruments; common and
preferred equity, including equity in the institution resolved; equity in subsidiaries owned by the resolved
institution; and limited partnerships. Prior to a bank closing, FMU determines which assets, including
securities, are transferred to an assuming institution and which assets are transferred to the FDIC
receivership. During the bank closing process, DRR’s Capital Markets Unit (CMU) performs a valuation
of failed bank securities and determines the current market value of readily marketable securities and is
responsible for the custody, transfer, management, and disposition of securities that remain with the
receivership. CMU also monitors collection of securities distributions and submits expected payment
documentation to DRR Receivership Accounting, which ensures that actual payments are received. DRR
Receivership Accounting is responsible for allocating cash collected to the corresponding security and
receivership.

The value of securities retained by the FDIC in its receivership capacity was $12.8 and $12.4 billion on
December 31, 2010 and May 31, 2011, respectively. For the year ended December 31, 2010, principal
collections totaled $11.3 billion, and sales of securities in liquidation totaled $9.1 billion. For the period
January 1, 2011 through May 31, 2011, principal collections totaled $1.7 billion, and sales of securities
totaled $691 million. During the period of our audit, DRR was developing the DRR Capital Markets
Policies and Procedures Manual, and while the manual has not yet been finalized, CMU noted that
policies and procedures contained within the manual were implemented prior to our review period. As
such, we used the manual as the primary criteria during the audit.


Audit Results
BDO concluded that, except as noted below, CMU had established adequate draft procedures, processes,
and controls for the FDIC’s acquisition and management of securities from failed financial institutions.
CMU’s draft Capital Markets Policies and Procedures Manual details procedures, processes, and
controls for each area covered by our audit objectives, and includes flowcharts of the processes, as well as



                               To view the full report, go to http://www.fdicig.gov
                                     The FDIC’s Acquisition and Management of
   Executive Summary
                                     Securities Obtained through Resolution and
                                     Receivership Activities
                                                                                     Report No. EVAL-12-001
                                                                                                October 2011

guidance and job aids. Based on the audit, BDO observed that CMU had taken steps that substantially
address provisions of the draft manual. With regard to each of the audit objectives, BDO determined that
all of the securities sampled were: (1) identified and accurately recorded into the receivership accounts,
with the exception of one manual error; (2) valued in accordance with the pricing policies approved by
FMU; and (3) accurately transferred to the FDIC custodial accounts or to the Division of Finance vault.

However, BDO concluded that DRR had not finalized, approved, and issued its draft Capital Markets
Policies and Procedures Manual and that the manual does not include key processes and controls for
monitoring P&I and timing guidelines for the transfer of securities to the FDIC custodian. Additionally,
BDO concluded that the P&I payments associated with securities were not always received and properly
recorded. As part of the audit, BDO requested information and support regarding the monitoring and
collection of P&I distributions owed to the FDIC for a sample of securities. In responding to this request,
DRR Receivership Accounting identified approximately $9.8 million of P&I distributions associated with
24 securities that were not properly identified, monitored, or collected during the period October 1, 2010
through March 31, 2011. Accordingly, the report includes $9.8 million in questioned costs that we will
report in our next Semiannual Report to the Congress. During the audit, DRR commenced a Securities
Payment Recapture and Reconciliation Project to identify and collect distributions owed to the FDIC for
securities acquired as a result of all bank failures through June 30, 2011. As of September 1, 2011, the
project team had identified $44.4 million in payments due to the FDIC from acquirers of failed
institutions. DRR anticipates completing the project by December 31, 2011.


Recommendations and Management Response
The report includes four recommendations intended to improve controls over the FDIC’s acquisition and
management of securities. Specifically, BDO recommended that the Director, DRR:

       finalize, approve, and issue the Capital Markets Policies and Procedures Manual ensuring that the
        process for monitoring and collecting P&I and timing guidelines for the transfer of custody of
        securities are specifically addressed;
       establish and document in the Capital Markets Policies and Procedures Manual procedures and
        controls for DRR Receivership Accounting acknowledging receipt of expected P&I documentation
        submitted by CMU and the communication mechanisms for notifying CMU of missing payments;
       identify and collect all distributions due to the FDIC and not collected for securities acquired during
        the past 3 years, including completing the Securities Payment Recapture and Reconciliation Project;
        and
       develop and document in the Capital Markets Policies and Procedures Manual specific guidance
        related to the transfer of all types of securities acquired by the DRR that addresses the roles and
        related timing guidelines for the various FDIC groups involved in the transfer of security process.

The Director, DRR, provided a written response to a draft of this report, dated September 29, 2011.
Management concurred with the four recommendations and described planned corrective actions that are
responsive to each recommendation.




                                To view the full report, go to www.fdicig.gov
Federal Deposit Insurance Corporation                                                          Office of Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General




DATE:                                     October 6, 2011

MEMORANDUM TO:                            Bret D. Edwards
                                          Director, Division of Resolutions and Receiverships

                                          /Signed/
FROM:                                     E. Marshall Gentry
                                          Assistant Inspector General for Evaluations


SUBJECT:                                  The FDIC’s Acquisition and Management of Securities Obtained
                                          through Resolution and Receivership Activities
                                          (Report No. EVAL-12-001)


The subject final report is provided for your information and use. Please refer to the Executive
Summary, included in the report, for the overall audit results. Our evaluation of the Division of
Resolutions and Receiverships’ response is incorporated into the body of the report. Your
comments on a draft of this report were responsive to the recommendations. We have
determined that management’s planned corrective actions are sufficient to resolve the
recommendations.

Consistent with the OIG’s new approach to the Corrective Action Closure (CAC) process, the
OIG plans to limit its review of CAC documentation to those recommendations that we
determine to be particularly significant. Such determinations will be made when the Office of
Enterprise Risk Management (OERM) advises us that corrective action for a recommendation
has been completed. Recommendations deemed to be significant will remain open in the OIG’s
System for Tracking and Reporting (STAR) until we determine that corrective actions are
responsive. All other recommendations will be closed in STAR upon notification by OERM that
corrective action is complete but remain subject to follow-up at a later date.

If you have questions concerning the report, please contact me at (703) 562-6378, or Ann Lewis,
Audit Manager, at (703) 562-6379. We appreciate the courtesies extended to the audit staff.

Attachment

cc: Stephen K, Trout, DRR
    Sean D. Cassidy, DRR
    James H. Angel, Jr., OERM
    Larry Choates, DOF
                                 Contents



Part I

   Report by BDO USA, LLP                                    I-1
   The FDIC’s Acquisition and Management of Securities
   Obtained through Resolution and Receivership Activities

Part II

   OIG Evaluation of Management Response                     II-1

   Corporation Comments                                      II-2

   Summary of Management’s Comments on the                   II-5
   Recommendations
        Part I

Report by BDO USA, LLP
                                                                             Audit Report

                                                                             The FDIC's Acquisition and Management of
                                                                             Securities Obtained through Resolution
                                                                             and Receivership Activities

                                                                            October 5, 2011




BDO USA, LLP, a Delaware limited liability partnership, is the U.S. member of BDO International Limited, a UK company limited by guarantee, and forms part of the
international BDO network of independent member firms.

BDO is the brand name for the BDO network and for each of the BDO Member Firms.
                                                                              Tel: 301-654-4900                           7101 Wisconsin Ave, Suite 800
                                                                              Fax: 301-654-3567                           Bethesda, MD 20814
                                                                              www.bdo.com




October 5, 2011

Honorable Jon T. Rymer
Inspector General
Federal Deposit Insurance Corporation
3501 Fairfax Drive
Arlington, VA 22226

Re: Transmittal of Results of the Audit of The FDIC’s Acquisition and Management of
Securities Obtained through Resolution and Receivership Activities
(Report No. EVAL-12-001)

Dear Mr. Rymer:

This letter submits our final report representing the results of our performance audit of The
FDIC's Acquisition and Management of Securities Obtained through Resolution and
Receivership Activities in accordance with Contract Number CORHQ-09-G-0386 dated
September 28, 2010. The objective of this performance audit was to assess the FDIC’s
acquisition and management of securities obtained through resolution and receivership activities.
As part of our work, we interviewed key DRR officials responsible for the process and obtained
other evidence to accomplish the audit objectives.

We conducted our performance audit in accordance with Generally Accepted Government
Auditing Standards (GAGAS). Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.

Overall, the acquisition and management of securities obtained through resolution and
receivership activities was completed in accordance with the applicable policies, procedures, and
guidelines. We found that the FDIC had implemented controls designed to ensure that the
acquisition and management of securities was managed effectively and potential losses to the
DIF were minimized. While these controls are positive, updated and additional internal control
procedures and certain control enhancements are warranted.

We issued a draft of this report on August 18, 2011. We subsequently met with representatives of
the FDIC’s Division of Resolutions and Receiverships (DRR) in Washington, D.C. and Office of
Inspector General (OIG) representatives to obtain informal feedback on the draft report. Based
on the informal feedback received, we made changes to the draft report that we deemed
appropriate. On September 29, 2011, the Director, DRR, provided a formal written response to
our draft report.


BDO USA, LLP, a New York limited liability partnership, is the U.S. member of BDO International Limited, a UK company limited by guarantee, and forms part of the
international BDO network of independent member firms.

BDO is the brand name for the BDO network and for each of the BDO Member Firms.

                                                                                  I-2
This performance audit did not constitute an audit of financial statements in accordance with
GAGAS. BDO was not engaged to and did not render an opinion on the FDIC’s internal
controls over financial reporting or over financial management systems. BDO cautions that
projecting the results of our audit to future periods is subject to the risks that controls may
become inadequate because of changes in conditions or because compliance with controls may
deteriorate. The information included in this report was obtained from the FDIC on or before
June 30, 2011. We have no obligations to update our report or to revise the information
contained therein to reflect events and transactions occurring subsequent to June 30, 2011.

Please contact Thomas Cooper at 301-634-4900 if you have any questions or comments
regarding this report.

Very truly yours,




BDO USA, LLP




                                              I-3
                                   TABLE OF CONTENTS

EXECUTIVE SUMMARY                                                                             I-5

BACKGROUND                                                                                    I-8

RESULTS OF AUDIT                                                                             I-10

FINDING 1: FDIC DRR POLICIES AND PROCEDURES                                                  I-10

      Recommendation Related to FDIC DRR Policies and Procedures                             I-11

FINDING 2: CAPITAL MARKETS MONITORING AND COLLECTION OF SECURITIES                           I-12
           DISTRIBUTIONS

      Recommendations Related to the Monitoring and Collection of Securities Distributions   I-13

FINDING 3: TRANSFER OF CUSTODY OF ACQUIRED SECURITIES TO THE FDIC                            I-14

      Recommendation Related to the Transfer of Custody of Acquired Securities to the FDIC   I-15

OBSERVATION: PROFORMA RECORDATION ERROR                                                      I-16

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY                                              I-17

APPENDIX II - EXPLANATION OF MONETARY BENEFITS TERMS AND MONETARY
              RESULTS TABLE                                                                  I-20

APPENDIX III - GLOSSARY OF TERMS                                                             I-21

APPENDIX IV - ACRONYMS USED IN THE REPORT                                                    I-23

CHARTS AND TABLES

      Chart 1: Days Taken to Transfer Securities to the Custodian, by Receivership           I-14

      Table 1: Summary of Securities Sample Components                                       I-19

      Table 2: Monetary Benefits                                                             I-20




                                                I-4
EXECUTIVE SUMMARY



The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG) contracted with
BDO USA, LLP (BDO) to conduct an audit of the acquisition and management of securities1 obtained
through resolution and receivership activities. Based on delegations from the FDIC’s Board of Directors,
the FDIC’s Division of Resolutions and Receiverships (DRR) has primary responsibility for resolving
failed financial institutions and managing the resulting receiverships, including security assets retained by
the FDIC in its receivership capacity.
The objectives of the audit were to determine whether key procedures, processes, and controls over
acquisition and management of securities ensure that:
       securities were fully identified and accurately recorded into receivership accounts;

       securities were valued in accordance with pricing policies approved by the DRR Franchise
        Marketing Unit (FMU);

       principal and interest (P&I) payments associated with securities were received and properly
        recorded; and

       securities were transferred to the FDIC custodial account completely and accurately or adequate
        control was established to safeguard the physical securities.

The audit covered the securities acquired through the resolution and receivership activities of the failed
banks that were closed and placed into FDIC receivership from October 1, 2010 through March 31, 2011.
The securities included in the scope of the audit were both marketable and non-marketable securities
retained. These securities encompass those held by subsidiaries of institutions which have been subject to
the resolution process, as well as securities that were obtained or are potentially available through
defaulted loans. The scope of the audit excluded any securities covered by Shared-Loss Agreements
(SLAs). We tested the acquisition and management of a sample of 45 of the 442 securities acquired
during the period of our review, $214 million out of the total population value of $446 million. The
sample of 45 securities covered 12 receiverships out of the 37 receiverships that were established and
included retained securities during October 1, 2010 through March 31, 2011.2
The scope of the audit included procedures, processes, and controls over the acquisition and management
of securities obtained through resolution and receivership activities. As part of our work, we:
(1) interviewed key DRR and Division of Finance (DOF) personnel responsible for the acquisition and
management of the securities and other assets; and (2) reviewed a sample of securities acquired through

1
  The term Securities or security assets includes, but is not limited to, US Treasury instruments, issues of
governmental agencies, mortgage-backed obligations, municipal bonds, warrants, options, futures contracts,
partnership interests, shares of unit investment trusts, participation certificates, preferred or common stocks and
other equity instruments, rated or unrated bonds, notes or other debt instruments, financial derivatives, special
purpose finance corporations (subsidiaries) which serve or have served as vehicles for issuing or holding mortgage-
backed or asset-backed securities, and all related instruments.
2
  In total, 56 receiverships were established during this period, of which 19 did not have any FDIC retained
securities.



                                                        I-5
the resolution and receivership activities of the failed banks that were closed from October 1, 2010
through March 31, 2011. The sample was judgmental and, therefore, not projectable to the population of
securities. A detailed discussion of our objectives, scope, and methodology is included in Appendix I of
this Report. The primary criteria for this audit were: (1) the draft Capital Markets Policies and
Procedures Manual,3 (2) the General Accounting Office's (GAO) November 1999 Publication, Standards
for Internal Control in the Federal Government, and (3) FDIC Circular 4010.3, FDIC Enterprise Risk
Management Program.
With the exception of findings discussed in this report, DRR’s Capital Markets Unit (CMU) has
established adequate draft procedures, processes, and controls for the FDIC’s acquisition and
management of securities from failed financial institutions. CMU’s draft Capital Markets Policies and
Procedures Manual details procedures, processes, and controls for each area covered by our audit
objectives, and includes flowcharts of the processes, as well as guidance and job aids. Based on our audit,
we observed that CMU had taken steps that substantially address provisions of the draft manual. While
the manual has not yet been finalized, CMU noted that policies and procedures contained within the
manual were implemented prior to our period of review. As such, we used the manual as the primary
criteria in the audit.
With regard to each of our audit objectives, we determined that all of the securities that we sampled were
(1) identified and accurately recorded into the receivership accounts, with the exception of one manual
error; (2) valued in accordance with the pricing policies approved by FMU; and (3) accurately transferred
to the FDIC custodial accounts or to the DOF vault. However, we found that the P&I payments
associated with securities were not always received and properly recorded. When responding to our
request for information and support regarding the monitoring and collection of P&I distributions owed to
the FDIC, DRR Receivership Accounting identified approximately $9.8 million of P&I distributions that
were not properly identified, monitored, or collected during the period October 1, 2010 through March
31, 2011 for the securities we sampled. DRR has commenced a Securities Payment Recapture and
Reconciliation Project to identify and collect all distributions owed to the FDIC for securities acquired in
all bank failures through June 30, 2011.
We also concluded that CMU could improve its draft Capital Markets Policies and Procedures Manual
and its compliance with certain procedures within the manual. As of the report date, CMU was still
revising the manual4 and, therefore, had not finalized and obtained appropriate approvals for the Capital
Markets Policies and Procedures Manual. Further, CMU had not fully implemented provisions for
monitoring and overseeing the collection of P&I and other distributions on the security assets that the
FDIC as receiver has retained. Additionally, CMU had not established criteria or timing guidelines for
the transfer of securities to the FDIC custodian. Enhanced criteria and improved compliance in these
areas should help ensure the accuracy and efficiency of the securities acquisition and management
process.




3
  We used the draft version of the FDIC DRR Capital Markets Policies and Procedures Manual notated by DRR as
revised February 2, 2011.
4
  In July 2011, we were notified by DRR that the manual had been revised subsequent to the February 2, 2011
version and was being reviewed by the applicable DRR departments.


                                                     I-6
Specifically, we are recommending that DRR:

       finalize, approve, and issue the draft Capital Markets Policies and Procedures Manual;

       establish and document procedures and corresponding controls for monitoring and collecting
        P&I or other distributions owed to FDIC for its retained securities; and

       develop and document criteria defining timing guidelines for the transfer of custody to the
        FDIC’s custodian for book-entry securities.

We conducted this performance audit from January 2011 through July 2011 in accordance with Generally
Accepted Government Auditing Standards (GAGAS) issued by the Comptroller General of the United
States and with audit policies and procedures established by the FDIC OIG. Those standards, policies,
and procedures require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. Additionally, we used the GAO’s November 1999 publication, Standards for Internal Control
in the Federal Government, as criteria for assessing DRR’s securities acquisition and management
program. The glossary in Appendix III contains definitions for key terms, and Appendix IV contains a
listing of acronyms.
This performance audit did not constitute an audit of financial statements in accordance with GAGAS.
BDO was not engaged to, and did not, render an opinion on the FDIC’s internal controls over financial
reporting or over financial management systems. BDO cautions that projecting the results of our audit to
future periods is subject to the risks that controls may become inadequate because of changes in
conditions or because compliance with controls may deteriorate.




                                                   I-7
BACKGROUND


Key aspects of the FDIC’s mission are to plan and efficiently administer the resolution of failing FDIC-
insured institutions and the acquisition and management of assets acquired by the FDIC in its receivership
capacity. Prompt, responsive, and efficient administration of failed financial institutions is required to
maintain confidence and stability in our financial system. The FDIC’s DRR is chiefly responsible for the
acquisition and management of the retained assets, including securities.
Once a financial institution is identified for closing, DRR markets and seeks to sell the assets and/or
liabilities to the highest bidder to achieve the greatest return for the Deposit Insurance Fund. If no
acquiring institution is found, the FDIC proceeds with a deposit payout when the institution is closed.
When a sale is consummated, a Purchase and Assumption Agreement (P&A) is generally executed
delineating the failed financial institution’s assets and liabilities being acquired by the Assuming
Institution (AI). Assets and liabilities not purchased by the AI are retained for management and
disposition by the FDIC in its receivership capacity.
When securities are included within a failed institution’s assets, FMU verifies the existence of the
securities. Generally, the less marketable securities remain with the receivership and must be sold by
CMU. Securities obtained by the FDIC as a result of its resolution and receivership activities include, but
are not necessarily limited to: debt instruments; common and preferred equity, including equity in the
institution resolved; equity in subsidiaries owned by the resolved institution; and limited partnerships.
The total value of securities in liquidation held by the FDIC in its receivership capacity was $12.8 and
$12.4 billion on December 31, 2010 and May 31, 2011, respectively. For the year ended December 31,
2010, principal collections totaled $11.3 billion and sales of securities in liquidation totaled $9.1 billion.
From January 1, 2011 through May 31, 2011, principal collections totaled $1.7 billion, and sales of
securities totaled $691 million. The sales encompassed mostly U.S. agency securities and municipal
bonds.
DRR contains the key groups that are involved with the acquisition and management of assets, including
securities. Prior to a bank closing, FMU determines which assets, including securities, are transferred to
the AI and which assets are transferred to the FDIC in its receivership capacity. CMU is responsible for
the custody, transfer, management, and disposition of certain assets, including securities, which are
transferred to a receivership. DOF assists DRR by facilitating the transfer of the securities to the
custodians under instruction from CMU.
During the closing process of the P&A transaction, the FMU and the CMU Closing Team obtain a
complete inventory of securities that the FDIC as receiver is retaining, which may include securities such
as agency mortgage backed securities (MBS), non-agency private label MBS (PLMBS), and municipal
bonds. In addition, the inventory may include other assets, such as various types of loans, limited
partnership interests, corporate notes, preferred stock, and qualified financial contracts. Historically,
DRR has included securities in its SLAs within the P&A agreements with AIs, providing an FDIC
guarantee for a portion of the losses incurred. However, more recently, DRR has retained a larger portion
of the securities during the resolution process of failed institutions.
During the closing process, CMU performs a valuation of failed bank securities and determines the
current market value of readily marketable securities. For the securities that are not readily marketable or



                                                     I-8
are not regularly traded, FMU obtains support for the book value of the security at the time of closing,
such as broker or custodian statements. During the closing weekend, FMU records the securities in the
Proforma Jackets5 at either the current market value, as provided by CMU, or at the book value for non-
readily marketable securities.
After the closing weekend events, CMU advises DOF to transfer the retained securities from the failed
institution’s custodian6 to the FDIC’s custodian, the Federal Home Loan Bank of New York (FHLB NY).
Physical securities are generally obtained during the closing weekend and sent to DOF for safekeeping.
Finally, DRR Receivership Accounting is responsible for recording each of the receivership balances
separately on the FDIC general ledger system, based on the Proforma Jackets created during the closing
weekend.
Significant Criteria Related to Retained Securities

The draft DRR Capital Markets Policies and Procedures Manual includes information on securities and
other assets (syndicated loans, syndicated limited partnerships, and qualified financial contracts) managed
by DRR. It also addresses organizational responsibilities for the marketing and disposal of these asset
types. Prior to and during our audit there were no applicable policies and procedures that had been
established in the form of a DRR directive.
DOF does not maintain separate documented policies and procedures for the process of transferring the
securities to the FDIC’s custodial account. However, DOF’s responsibilities are documented in the draft
Capital Markets Policies and Procedures Manual.




5
  Documentation prepared by the Proforma Team to convert the failed bank’s accounting records from accrual basis
to cash basis accounting and to document the split of assets between those remaining with the FDIC as receiver and
those sold to the Acquiring Institution.
6
  A custodian is a financial institution that has the legal responsibility for a customer's securities.


                                                        I-9
RESULTS OF AUDIT


FINDING 1: FDIC DRR POLICIES AND PROCEDURES
CMU is developing a Capital Markets Policies and Procedures Manual that outlines its responsibilities
related to securities and other assets. The activities include the valuation of securities, the transfer of
custody of the securities to the FDIC’s custodian, and the management of the securities portfolio,
including periodic reconciliations and monitoring and collection of securities distributions. CMU still
needs to finalize procedures and we found that certain procedures were not implemented. Comprehensive
policies and procedures are important and help to ensure that management’s directives are carried out.
From our review of the Capital Markets Policies and Procedures Manual, all of the main functions of
CMU appear to be detailed, including flowcharts of the processes, as well as guidance and job aids. The
sections covered in the manual in relation to securities include pre-closing, closing, and post-closing
guidance. While the manual has not yet been approved, CMU noted that policies and procedures
contained within the manual were implemented prior to our period of review. As such, we used the
manual as the primary criteria in the audit.
While we determined that many of the policies and procedures in the draft manual were followed,
including those related to the valuation and recording of securities, we noted that certain policies and
procedures were not implemented. Specifically, procedures related to the monitoring of P&I and other
distributions were not fully implemented during the scope of our audit as discussed further in finding
number two. Additionally, certain reconciliations intended to ensure the accuracy of the securities
inventory listing were not performed during the time period covered by our audit. The reconciliation
process was implemented in January 2011, and from the commencement date through the end of our
period of review, the reconciliations were completed.
CMU indicated to us that it had resource constraints and was not able to fully develop and implement
policies and procedures regarding the acquisition and management process of securities during the past
three years when the FDIC experienced a large number of bank closings and receiverships.
The GAO Standards for Internal Control in the Federal Government provides high level guidance on the
appropriate documentation of transactions and internal control. The guidance notes that internal controls
need to be clearly documented, and the documentation should appear in management directives,
administrative policies, or operating manuals.
FDIC Circular 4010.3, FDIC Enterprise Risk Management Program, establishes policy for the
development, maintenance, and evaluation of a comprehensive Enterprise Risk Management (ERM)
Program at the FDIC. The ERM Program encompasses four fundamental requirements as follows:
    1)   Procedures that are both current and appropriately documented;
    2)   Reasonable controls that have been incorporated into those procedures;
    3)   Employees who have been trained in the proper execution of their duties; and
    4)   Supervisors and managers who are both empowered and held accountable for performance and
         results.




                                                   I-10
The ERM Program Circular provides that to the extent any component of the foundation changes,
immediate attention should be given to re-establishing the foundation and the corresponding ability to
carry out responsibilities effectively on a day-to-day basis.
DRR Circular 1212.1, DRR Directive System, establishes policies, guidelines, procedures, and
responsibilities for DRR staff when preparing, issuing, maintaining, or archiving documents within the
Division’s Directive System, including policy manuals and job aids. DRR Circular 1212.1 states that
program area staff are responsible for preparing directives, job aids and MOU to document policies,
procedures and tasks for which they are responsible. Additionally, the Circular states that DRR
Directives, Job Aids and MOU should be updated by originating parties in a timely manner to ensure
current policies and procedures are reflected.
Policies and procedures will help establish criteria to ensure the FDIC DRR is acquiring and managing its
securities assets consistently, timely and efficiently, which would include collecting the distributions that
are owed to FDIC as receiver.
Recommendation: We recommend that the Director, DRR:
    1) Finalize, approve, and issue the Capital Markets Policies and Procedures Manual in accordance
       with DRR Circular 1212.1 and FDIC Circular 4010.3, ensuring that the process for monitoring
       and collecting principal and interest payments and the timing guidelines for the transfer of
       custody of the securities are specifically addressed.




                                                    I-11
FINDING 2: CAPITAL MARKETS MONITORING AND COLLECTION OF SECURITIES
DISTRIBUTIONS

CMU did not monitor and oversee collection of all securities distributions as required by the draft Capital
Markets Policies and Procedures Manual. Specifically, CMU did not monitor expected payments,
through the preparation of a payment tracking and monitoring schedule, for 5 of the 45 securities we
sampled. Further, DRR Receivership Accounting did not receive payment tracking and monitoring
schedules that CMU prepared for the 40 remaining securities in our sample. As a result, the FDIC was
unaware that the P&I payments due to the FDIC were not received. Additionally, of the 40 monitoring
schedules that were prepared, 4 contained data that did not agree to the source documentation provided
and did not contain explanations for the variances.
The payment tracking and monitoring schedules are necessary for DRR Receivership Accounting to
allocate the cash collected to the corresponding security and receivership and to determine whether there
are missing payments. Once the data for the expected payments has been gathered, CMU is required to
send the expected payments documentation to DRR Receivership Accounting, who ensures that the actual
payments are received. For any discrepancies, DRR Receivership Accounting is required to notify the
Capital Markets Receivership Manager, who is responsible for tracking down missing payments. In that
regard, we noted that DRR Receivership Accounting did not receive the payment tracking and monitoring
schedules for the 45 securities within our sample. When responding to our request for information and
support regarding the monitoring and collection of P&I distributions owed to FDIC, DRR Receivership
Accounting prepared its own expected P&I payment documentation for the 45 sampled securities and
reconciled the actual payments received to the expected payments documentation. For 24 of the 45
securities, the P&I cash payments due to the FDIC were not received for certain months between October
2010 and March 2011. During this period, the payments due to the FDIC that had not been collected on
these 24 securities totaled approximately $9.8 million.
CMU is responsible for coordinating with DRR Receivership Accounting to ensure that the P&I
payments are received. Specifically, the draft Capital Markets Policies and Procedures Manual states
that the Capital Markets Receivership Manager is responsible for gathering third-party data to monitor
expected P&I payments and to coordinate with DRR Receivership Accounting to ensure that the P&I was
actually received by the FDIC. We noted that while the manual includes provisions for CMU to send
expected P&I payment documentation to DRR Receivership Accounting and for DRR Receivership
Accounting to notify CMU of any missing P&I payments, the manual does not specify the manner in
which: 1) CMU should send the information to DRR Receivership Accounting, 2) DRR Receivership
Accounting should confirm with CMU that it has received the information, or 3) DRR Receivership
Accounting should notify CMU of missing P&I payments.
Without proper monitoring and corresponding acknowledgements of the notifications of the securities
distributions owed to the Corporation, the FDIC did not collect the cash it was owed under the terms of
the securities acquired.
CMU has acknowledged responsibility for tracking the payments related to the retained securities due to
the receiverships. Additionally, CMU initiated a Securities Payment Recapture and Reconciliation
Project that was started during the course of our review, and is designed to determine whether the
expected payments were properly identified and collected for 368 receiverships. In their response to the
draft report, DRR stated that as of September 1, 2011, the Securities Payment Recapture and


                                                   I-12
Reconciliation Project identified and transferred to FDIC, $106 million in payments due from acquirers of
failed institutions (AIs). To date approximately $27.8 million of identified payments have been collected
from AIs; collection of the remaining payments due should occur after AIs complete their reviews to
confirm the Project’s calculations of amounts due FDIC as receiver.
Recommendation: We recommend that the Director, DRR:
    2) Establish and document in the Capital Markets Policies and Procedures Manual procedures and
       corresponding controls related to DRR Receivership Accounting acknowledging receipt of
       expected P&I payment documentation submitted by CMU and the communication mechanisms
       for notifying CMU of missing P&I payments; and
    3) Identify and collect all distributions due to the FDIC and not collected, for securities acquired
       during the past three years, including completing the Securities Payment Recapture and
       Reconciliation Project. (The OIG has advised us they will report $9.8 million in questioned costs
       in its next Semiannual Report to Congress, which represents the amount of distributions owed to
       the FDIC, but not collected, that DRR identified as a result of our audit. Appendix II provides a
       detailed explanation of how monetary benefits, including questioned costs, are determined,
       reported, and resolved according to the Inspector General Act of 1978, as amended.)




                                                  I-13
FINDING 3: TRANSFER OF CUSTODY OF ACQUIRED SECURITIES TO FDIC
We determined that CMU and DOF accurately transferred securities to an FDIC custodian or financial
advisor, as required. However, we noted that securities were not always transferred timely. To determine
whether the securities obtained through receivership were transferred to FDIC custody both accurately
and timely, we tested 45 items and determined the following:
         The 36 book-entry securities7 within our sample were all transferred to the FDIC custodian
          without exception.
         Seven securities in our sample were non-transferable stock or bonds that were appropriately
          transferred to a financial advisor.
         Two of the securities in our sample were physical securities, and the certificates were sent to
          DOF for safekeeping in the FDIC vault.
However, the timing of the transfers to the FDIC’s custodian, the FDIC’s vault, or the FDIC’s financial
advisor varied. We noted that the required timing of transfer to FDIC is not addressed in the draft Capital
Markets Policies and Procedures Manual. Specifically, for the 36 book entry securities the total number
of days between the bank closing date and the date of custody transfer to FHLB NY ranged from 27 to 74
days, with an average of 41 days. Refer to Chart 1 below for the details, which are summarized by
receivership.
Additionally, we analyzed the number of days between the bank closing date and the date CMU requested
DOF to schedule a transfer to the FDIC’s custodian, FHLB NY. Within this component of the transfer
process, the timing varied between 10 and 61 days for CMU to request that DOF schedule a transfer, with
an average time of 27 days.
Chart 1: Days Taken to Transfer Securities to the Custodian, by Receivership

               80
               70
               60
               50
        Days




               40
                                                                                    Days between transfer instruction 
               30                                                                   and transfer

               20
                                                                                    Days between Bank Closing and Cap 
               10                                                                   Markets e‐mail instructions to DOF

                0




                                Date Receivership Established




7
 A security for which the purchaser receives a receipt rather than an engraved certificate. Although a certificate may
exist in some instances, it is held in one location as ownership changes.


                                                         I-14
For the two physical securities in our sample, we observed the security certificates in the DOF vault;
however, for one of the two securities we were not able to clearly determine the date that the security was
received by DOF, or how the security was received. We noted that this security was from an institution
that failed on January 7, 2011, and was included on the DOF safe inventory list as of January 31, 2011.
The other security was delivered via courier service with DOF maintaining email documentation
supporting the transfer.
For the remaining seven securities in our sample (which included FHLB stock, municipal bonds, and a
bond fund), we reviewed a statement or other source documentation included in the Proforma Jackets
which evidenced the transfer of custody to the FDIC.
FDIC Circular 4010.3 includes two relevant Control Activities, namely (1) Physical Control Over
Valuable Assets, which requires the establishment of physical control to secure and safeguard assets; and,
(2) Accurate and Timely Recording of Transactions and Events, which requires the prompt recording of
transactions. CMU and DOF do not currently have timeline criteria established for securities transfers to
the FDIC’s custodian or for the transfer of physical securities to the DOF vault for safekeeping.
The various time ranges for the transfer of the securities resulted from several factors, including resource
constraints. CMU communicated that some transfers took longer than others due to encumbrances8,
portfolio size, staffing, vacations, delays at the other custodian banks, delays at the assuming institution,
and availability of authorized signers. CMU noted that in situations where there was an encumbered
security within a receivership, DRR deferred the request to transfer any security within the receivership
until the encumbrance(s) were removed.
The timely and efficient transfer of book entry securities from the acquiring institution to FHLB NY is
directly correlated to the FDIC receiving P&I distributions it was owed on these securities, as such
transfer established physical control in an FDIC account. Timely transfer of securities to the custodian
facilitates the receipt of cash directly by the FDIC and eliminates additional settlement efforts that are
required to collect the distributions owed to the FDIC in the event the securities are not transferred timely.
Defined criteria for the transfer of physical securities to FDIC would contribute to the physical securities
being securely transferred to FDIC in a timely manner.
Recommendation: We recommend that the Director, DRR:
      4) Develop and document in the Capital Markets Policies and Procedures Manual specific guidance
         related to the timing criteria for the transfer of custody of all types of securities acquired by
         FDIC DRR that addresses the roles and related timing guidelines for the various FDIC groups
         involved in the transfer of securities process.




8
    An encumbrance is a burden or charge upon property, such as a mortgage or lien.


                                                         I-15
OBSERVATION: PROFORMA RECORDATION ERROR
For 44 of the 45 securities tested, the confirmed proforma balances were recorded correctly by FMU in
the Proforma Jacket. The remaining non-marketable security’s book value was $4,125,000 according to
the supporting source documentation in the Proforma Jacket, but this confirmed proforma balance was
incorrectly recorded as $5,000,000 in the Jacket.
DRR Circular 4300.1, FDIC Enterprise Risk Management System, establishes the Proforma Manual as
the authoritative reference for the accumulation and presentation of DRR Proforma procedures. The
Proforma Manual calls for a review process of the Proforma Jackets that are prepared. Specifically, when
the Jacket has been completed by the preparer, the Jacket is submitted electronically to the Proforma team
leader who completes a detailed review and documents the approval electronically. A general review is
then completed and documented by the Financial Manager. Each approval is documented on the
Proforma Jacket’s cover sheet. The controls in place require three signatures for the recording of the
book value in the Proforma Jacket, namely; (1) preparer, (2) reviewer, and (3) general reviewer.
For the one security that we tested with an incorrect book value amount, all three signatures were present
indicating the manual control did not operate effectively. The error was most likely attributed to a manual
recording error that was not identified during the review process.
As a result of the recordation error in the Proforma Jacket, the security recorded on the FDIC general
ledger and system of record was overstated by $875,000. However, we notified DRR Receivership
Accounting of this overstatement, and DRR adjusted the general ledger to reflect the actual security
value.
DRR noted that the recording error did not impact FDIC monetarily as the asset was assumed by the
FDIC, in its receivership capacity. As this error appears to be non-systemic and non-recurring and DRR
Receivership Accounting adjusted the general ledger to reflect the security value, we are not making a
recommendation regarding this recordation error.




                                                   I-16
                                              APPENDIX I
                            OBJECTIVES, SCOPE, AND METHODOLOGY


We conducted a performance audit that provided an independent assessment of the FDIC's acquisition
and management of securities obtained through resolution and receivership activities. This audit did not
address the FDIC’s process for marketing or disposition of securities. The audit was performed in
accordance with GAGAS.
Objectives

The objectives of the audit were to determine whether key procedures, processes, and controls over
acquisition and management of securities ensure the following:

       Securities were fully identified and accurately recorded into receivership accounts.

       Securities were valued in accordance with pricing policies approved by FMU.

       P&I payments associated with securities were received and properly recorded.

       Securities were transferred to the FDIC custodial account completely and accurately or adequate
        control was established to safeguard the physical securities.

Because this was an audit performed in accordance with GAGAS, internal controls which were
significant in the context of the audit objectives were assessed to determine if they are properly designed
and implemented. The primary criteria for conducting this audit included:
       Draft Capital Markets Policies and Procedures Manual;

       FDIC Circular 4010.3, FDIC Enterprise Risk Management System;

       DRR Circular 4300.1, Proforma Manual;

       DRR Circular 1212.1, DRR Directive System; and

       GAO’s Standards for Internal Control in the Federal Government, which have been
        adopted by the FDIC and include specific requirements related to internal control,
        including the monitoring that should take place in the course of normal operations.

Scope

Securities within the scope of the audit included marketable and non-marketable securities retained by the
FDIC during the receivership process. These securities encompassed those held by subsidiaries of
institutions which have been subject to the resolution process as well as securities which were obtained or
were potentially available through defaulted loans. The scope of the audit excluded any securities covered
by SLAs.




                                                   I-17
The scope of the audit included procedures, processes, and controls over the acquisition and management
of securities obtained through resolution and receivership activities. Specifically, the scope included, but
was not limited to:
       Processes and controls over the establishment of the inventory of securities to be retained by
        DRR, to include activities to ensure that all securities are identified;

       Process and controls over the determination of the book values of securities acquired to include
        accuracy of the initial valuations;

       Establishment of the inventory for sales and marketing purposes, including system controls,
        interaction, reconciliation, and maintenance. Systems include the 4C Inventory System, the
        Controls Total Module (CTM), and the Metavante Asset Servicing System;

       Establishment of accounting records on the receivership books and records, including activities to
        ensure that all acquired securities are accurately recorded;

       Processes and controls for transferring the acquired securities to the FDIC’s single custodian
        account; and

       Accounting for management of securities, including receipts of P&I payments and dividends, on
        receivership books and records to ensure that the FDIC as receiver is receiving distributions
        following acquisition.

Methodology

BDO evaluated the design and implementation of the control environment to determine its effectiveness.
BDO coordinated with the OIG to select a representative sample of securities and test the acquisition and
management of them in compliance with the applicable criteria.
BDO conducted its field work during May and June 2011, which included an audit of the relevant
policies, procedures, and key controls, and completion of the testing of the sample of securities selected
for compliance with the specified criteria. During this time we also interviewed relevant personnel
responsible for the acquisition and management of securities obtained through resolution and
receivership, which primarily included the FMU, CMU, DOF, and DRR Receivership Accounting
personnel.
For our testing, beginning with the acquisition of the securities in FDIC receivership through ongoing
management of the securities, we reviewed and assessed a sample of securities acquired to ensure that
they were properly recorded on the receivership general ledger and properly managed in accordance with
the appropriate criteria. For the selected sample we assessed the following:
Acquisition

We reviewed the completeness, valuation, and accuracy of the securities inventory retained by the FDIC
subsequent to a bank’s failure as of the acquisition date. We evaluated these assertions by executing the
following tasks:




                                                    I-18
    •        Evaluated the design and implementation of the controls surrounding the development of the
             securities inventory and determined their operating effectiveness.

    •        Assessed the use of valuations in creating the initial book values recorded in the securities
             inventory.

    •        Assessed the recording of the acquired securities in CTM, Metavante and 4C, including any
             accompanying reconciliations.

    •        Identified and assessed any delays in recording the assets in the systems.

    •        Verified that the acquired securities were accurately transferred to the FDIC’s custodian in a
             timely manner.

Management

We evaluated the completeness and accuracy of P&I and other distributions along with the management
of securities during the scope of the audit. We evaluated these assertions by executing the following
tasks:
    •        Evaluated the design and implementation of the controls surrounding the management
             process and determined their effectiveness and efficiency.

    •        Assessed whether the FDIC is receiving all P&I payments or other distributions it is owed
             after the acquisition of assets through the receivership process.

    •        Reconciled distributions to the statements of the custodian.

    •        Reviewed the accounting for the P&I receipts from securities on the receivership books.

The above procedures were developed to provide a basis from which to conclude whether the FDIC's
acquisition and management of securities obtained through resolution and receivership activities were
compliant with the applicable criteria and performed in a reasonable and timely manner. The scope of the
audit did not include determining why the AI did not remit payments of P&I to the FDIC. We prepared
an audit program to address all of the procedures performed. Table 1 provides additional details
regarding the components of the securities sample.
Table 1: Summary of Securities Samples Components
Selection Criteria                                                            Number of Loans
Book entry securities                                                              36
FHLB Stock                                                                          3
Municipal Bonds                                                                     3
Physical Securities                                                                 2
Bond Fund                                                                           1
Total                                                                              45
Source: BDO sample selection.
In summary, we reviewed a total of 45 securities that DRR acquired and managed during the period
October 1, 2010 through March 31, 2011.



                                                    I-19
                                              APPENDIX II
                       EXPLANATION OF MONETARY BENEFITS TERMS
                                AND MONETARY RESULTS TABLE
The Inspector General Act of 1978, as amended, (1) defines the terminology associated with monetary
benefits identified by auditors and (2) establishes the reporting requirements for the identification and
disposition of questioned costs in audit reports. In addition, the explanations provided below indicate that
the process for actual recovery of questioned costs involves various stages, evaluations of factors, and
decision-making processes. The following defines the key terms associated with monetary benefits and
explains how they relate to each other.

       First, auditors may identify “questioned costs” based on an alleged violation of a provision of a
        law, regulation, contract grant, cooperative agreement, or other agreement or document governing
        the expenditure of funds. In addition, a questioned cost may be a finding in which, at the time of
        the audit, a cost is not supported by adequate documentation (i.e., unsupported questioned cost);
        or a finding that the expenditure of funds for the intended purpose is unnecessary or
        unreasonable. It is important to note that the OIG does not always expect the FDIC to recover
        100 percent of all questioned costs.
       The next step in the process of making a decision about questioned costs is a “management
        decision.” This is the final decision issued by management after evaluating the finding(s) and
        recommendation(s) included in an audit report. The management decision must specifically
        address the questioned costs by either disallowing or not disallowing these costs. A “disallowed
        cost” is a questioned cost that management, in a management decision, has sustained or agreed
        should not be charged to the government.
       Once management has disallowed a cost and, in effect, sustained the auditor’s questioned costs,
        the last step in the process takes place which culminates in the “final action.” This is the
        completion of all actions that management has determined are necessary to resolve the findings
        and recommendation included in an audit report. Typically, in the case of disallowed costs,
        management will evaluate factors beyond the conditions in the audit report, such as qualitative
        judgments of value received or the cost to litigate, and decide whether it is in the FDIC’s best
        interest to pursue recovery of disallowed costs.
When responding to our request for information and support regarding the monitoring and collection of
P&I distributions owed to FDIC, DRR Receivership Accounting identified approximately $9.8 million of
P&I that was not collected during the period October 1, 2010 through March 31, 2011. Table 2 reflects
these monetary benefits.


Table 2: Monetary Benefits
Finding Description                                                                     Dollar Amount
  Uncollected P&I distributions on book-entry securities                                      $ 9,803,488
Total of Questioned Cost                                                                      $ 9,803,488




                                                    I-20
                                      APPENDIX III
                                   GLOSSARY OF TERMS

Term                  Definition
4C                    FDIC’s internal asset inventory system. 4C houses all asset data for failed
                      institutions beginning with pre-close activities, through asset disposition and
                      ongoing management.


Book-entry Security   A security for which the purchaser receives a receipt rather than an engraved
                      certificate. Although a certificate may exist in some instances, it is held in one
                      location as ownership changes.


Book Value            A loan's unpaid principal balance at closing as adjusted by principal transactions
                      between the date of the information package and the closing, or for loans
                      serviced by others as of the date of the most recent servicing statement.


Capital Markets       We used the draft version of the DRR Capital Markets Policies and Procedures
Policies and          Manual notated by DRR as revised February 2, 2011. This is the version of the
Procedures Manual     manual containing CMU’s policies and procedures that was applicable to our
                      audit period.


Controls Total        FDIC’s internal accounting system for monitoring the receipt of cash by the
Module (CTM)          Corporation. The cash is posted by Journal Entry to specific assets in
                      Metavante.


Custodian             A custodian is a financial institution that has the legal responsibility for a
                      customer's securities.


Metavante Asset       Third-party system used by FDIC for asset servicing. Individual assets are
Servicing System      loaded into Metavante which is updated by Journal Entries posted into CTM.


Proforma Jacket       Documentation prepared by the Proforma Team to convert the failed bank’s
                      accounting records from accrual basis to cash basis accounting and to document
                      the split of assets between those remaining with the FDIC and those sold to the
                      Acquiring Institution.


Purchase and          The agreements executed between the receiver; buyer; and seller, including the
Assumption            covered asset listings, and the SLAs.
Agreements



                                               I-21
Term                     Definition
Receiver                 The FDIC as initial acquirer of the failed bank.


Receivership             A receivership is a temporary entity that is established upon the appointment of
                         the FDIC by the appropriate federal or state regulatory authority to wind up the
                         business and affairs of a failed financial institution.


Securities or security   The term “Securities or security assets” includes, but is not limited to, US
assets                   Treasury instruments, issues of governmental agencies, mortgage-backed
                         obligations, municipal bonds, warrants, options, futures contracts, partnership
                         interests, shares of unit investment trusts, participation certificates, preferred or
                         common stocks and other equity instruments, rated or unrated bonds, notes or
                         other debt instruments, financial derivatives, special purpose finance
                         corporations (subsidiaries) which serve or have served as vehicles for issuing or
                         holding mortgage-backed or asset-backed securities, and all related instruments.


Shared Loss              An agreement with the purchaser to share in the losses from a failed
Agreements               institution’s assets. Shared Loss Agreements are part of the Purchase and
                         Assumption Agreement.




                                                   I-22
                       APPENDIX IV
                ACRONYMS USED IN THE REPORT

Acronym   Explanation
4C        Communication, Capability, Challenge and Control
AI        Assuming Institution
BDO       BDO USA, LLP
CMU       Capital Markets Unit
CTM       Controls Total Module
DRR       Division of Resolutions and Receiverships
DOF       Division of Finance
ERM       Enterprise Risk Management
FDIC      Federal Deposit Insurance Corporation
FHLB      Federal Home Loan Bank
FHLB NY   Federal Home Loan Bank of New York
FMU       Franchise Marketing Unit
GAGAS     Generally Accepted Government Auditing Standards
GAO       Government Accountability Office, formerly the General Accounting Office
MBS       Mortgage Backed Securities
OIG       Office of Inspector General
P&A       Purchase and Assumption
P&I       Principal and Interest
PLMBS     Private Label Mortgage Backed Securities
SLA       Shared Loss Agreement




                                     I-23
                 Part II

Management’s Comments and OIG Evaluation
MANAGEMENT’S COMMENTS AND OIG EVALUATION

The Director, DRR, provided a written response, dated September 29, 2011, to the draft
of this report. The response is presented in its entirety beginning on Page II-2.
Management concurred with the four BDO recommendations and the planned actions are
sufficient to resolve all of them.

In response to the recommendations, DRR stated that it planned to have the Capital
Markets Policies and Procedures Manual finalized and approved by December 31, 2011.
Further, DRR indicated that the Capital Markets Policies and Procedures Manual would
include timing guidelines for transferring the custody of securities and enhanced
procedures that address the monitoring and collection of principal and interest payments.
DRR stated that, as of September 1, 2011, the Securities Payment Recapture and
Reconciliation Project (Project) identified $44.4 million in payments due from acquirers
of failed institutions (assuming institutions), and approximately $27.8 million of
identified payments have been collected from assuming institutions. DRR anticipates
completing the Project by December 31, 2011. In addition, DRR’s Capital Markets and
Receivership Accounting, in conjunction with the FDIC’s Division of Administration and
Division of Information Technology, are in the initial stages of acquiring a securities
portfolio management and accounting system that will improve controls in this area. A
summary of management’s comments on the recommendations begins on page II-5.




                                          II-1
MANAGEMENT’S COMMENTS




         II-2
II-3
II-4
            SUMMARY OF MANAGEMENT’S COMMENTS ON THE
                       RECOMMENDATIONS


This table presents management’s response to the recommendations in the report and the
status of the recommendations as of the date of report issuance.

            Corrective Action: Taken or           Expected       Monetary   Resolved:a    Open
                      Planned                    Completion      Benefits   Yes or No      or
Rec. No.                                             Date                                Closedb
   1.      The Capital Markets Policies and      Dec. 31, 2011      $0         Yes        Open
           Procedures Manual has been
           updated to include timing
           guidelines for transferring the
           custody of securities. DRR plans
           to have the Capital Markets
           Policies and Procedures Manual
           finalized and approved by
           December 31, 2011.

           CMU and DRR Receivership
           Accounting are in the process of
           identifying and documenting
           enhancements to procedures for
           monitoring and collection of P&I
           that are identified through the
           Securities Payment Recapture and
           Reconciliation Project. Any
           enhancements identified through
           the project will be added to
           current manuals through the
           established change management
           process.


   2.      The Securities Payment                Dec. 31, 2011      $0         Yes       Open
           Recapture and Reconciliation
           Project is establishing procedures
           and controls over the receipt of
           expected P&I payments and the
           scope of the project includes all
           bank failures through June 30,
           2011.

           CMU has implemented the
           current procedure of providing
           Proforma teams and DRR
           Receivership Accounting with
           information to identify expected
           payments, and DRR Receivership
           Accounting will notify CMU of
           any discrepancies.


                                                II-5
                 SUMMARY OF MANAGEMENT’S COMMENTS ON THE
                            RECOMMENDATIONS

                 Corrective Action: Taken or             Expected          Monetary       Resolved:a       Open
                           Planned                      Completion         Benefits       Yes or No         or
Rec. No.                                                   Date                                           Closedb

      3.       In the second quarter of 2011,           Dec. 31, 2011         $9.8            Yes         Open
               DRR implemented the Securities                                million
               Payment and Recapture
               Reconciliation Project, which is
               determining distributions due
               FDIC for collection related to all
               bank failures through June 30,
               2011. The Project is anticipated
               to be completed by December 31,
               2011. Additionally, on June 17,
               2001, DRR collected $9.8 million
               of distributions identified by our
               audit that were owed but had not
               yet been collected by the FDIC in
               its receivership capacity.

      4.       A guideline has been                     Dec. 31, 2011          $0             Yes         Open
               implemented for CMU to request
               the DOF’s Treasury Management
               Branch to schedule the transfer of
               unencumbered securities within
               30 days of an institution’s failure.
               Treasury Management will
               transfer the unencumbered
               securities within 10-12 days for
               smaller portfolios and 15-20 days
               for larger portfolios after receipt
               of the request and supporting
               documentation from CMU after
               CMU has responded to all
               questions that arise upon review
               of the documentation.
a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                   corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but alternative action meets the
                   intent of the recommendation.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                   Monetary benefits are considered resolved as long as management provides an amount.
b
 Recommendations will be closed when (a) the Office of Enterprise Risk Management notifies the OIG that
corrective actions are complete or (b) in the case of recommendations that the OIG determines to be particularly
significant, when the OIG confirms that corrective actions have been completed and are responsive.




                                                      II-6
